CERTIFICATE OF SERVICE
I am counsel of record for Charles Don Flores, appointed to represent him
under 18 U.S.C. § 3599, and I am a member of the U.S. Supreme Court Bar. On
January 3, 2021, I contacted Jaclyn O’Connor Lambert, counsel of record for the
Respondent in this case, who agreed, on January 4, 2021, to receive electronic service
of this filing. Therefore, on January 6, 2021, I sent the reply brief to counsel for the
Respondent at:
Jaclyn O’Connor Lambert
Assistant District Attorney
Dallas County District Attorney
Jaclyn.OConnor@dallascounty.org
Thus, I accomplished service as permitted by this Court’s November 13, 2020, Order.
DATED: January 6, 2021
Respectfully submitted,
/s/ Gretchen Sims Sween
Gretchen Sims Sween,
Counsel of Record
P.O. Box 5083
Austin, Texas 78763-5083
TEL: (214) 557.5779
gsweenlaw@gmail.com
Counsel for Petitioner

